NO.
SUPREME COURT OF THE UNITED STATES
ANDRE WATSON
)
Petitioner
)
- VS. )
UNITED STATES OF AMERICA
)
Respondent.
)
On Petition For Writ Of Certiorari To
The United States Court Of Appeals For The Sixth Circuit
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
Pursuant to the Criminal Justice Act and Supreme Court Rule 39
Pursuant to Title 18, United States Code ยง3006A(d)(6) and Rule 39 of this Court, Petitioner
asks leave to file the attached Petition for Writ of Certiorari to the United States Court of Appeals
for the Sixth Circuit without prepayment of fees or costs and to proceed In Forma Pauperis.
Petitioner was represented by counsel appointed pursuant to Title 18, United States Code
ยง3006, the Criminal Justice Act, on appeal to the United States Court of Appeals for the Sixth
Circuit and at trial before the United States District Court for the Western District of Michigan.
Respectfully submitted,
/s Michael Losavio
Michael M. Losavio
1642 Jaeger Avenue
Louisville, Kentucky 40205
(502) 417-4970
losavio@win.net
Counsel of Record for Petitioner
CERTIFICATE
I hereby certify that a copy of this Motion was deposited in the U.S. Mail, first-class
postage prepaid, or by Federal Express private service properly addressed to Hon. Elizabeth
Prelogar, Office of the Solicitor General of the United States, Room 5614, Department of Justice,
950 Pennsylvania Ave., N. W., Washington, DC 20530-0001 this 1st day of April, 2021
/s Michael Losavo
Michael M. Losavio

